No. 20-256
ZAVIAN MUNIZE JORDAN,
Petitioner,
v.
UNITED STATES,
Respondent.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Brief For Amici Curiae The Howard
University School Of Law Human And Civil Rights
Clinic And The National Association For Public
Defense In Support Of Petitioner was sent via 1st
class mail to the U.S. Supreme Court and a digital
copy was sent to counsel for the Petitioner and
Respondent by electronic mail on October 1, 2020. The
parties have consented to electronic service.
Marcia G. Shein
Law Firm of Shein &
Brandenburg
2392 North Decatur Rd
Decatur, GA 30033
marcia@msheinlaw.com
Counsel for Petitioner

Jeffrey B. Wall
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Ave NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

/s/ Tiffany R. Wright
Counsel of Record

